No. 19-1141

 

 

In THE
Supreme Court of the United States

ATLANTIC TRADING USA, LLC, ez al.,

Petitioners,
v.

BP P.L.C., et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF AMICI CURIAE
BETTER MARKETS, INC. AND AMERICANS FOR
FINANCIAL REFORM EDUCATION FUND
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,950 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 17, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
